21.

22.

23.

24.

25.

26.

27.

purchase with the Card only if you have made a good faith
attempt, but have been unable to obtain satisfaction from
the plan merchant, and (a) your purchase was made in
response to an advertisement we sent or participated in
sending you, or (b) your purchase cost more than $50
and was made from a plan merchant in your state or
within 100 miles of your home. Any other disputes you
must resolve directly with the plan merchant.
Non Waiver of Rights: We can delay enforcing any of
rights under this Agreement without losing those rights.
We can accept late payments or partial payments without
losing any of our rights under this Agreement.
Effect of Agreement: This Agreement is the contract
which applies to all transactions on your account even
though the sales, cash advance, credit or other slips you
sign or receive may contain different terms. We may
amend this Agreement from time to time by sending you
the advance written notice required by law. Your use of
the Card thereafter will indicate your agreement to the
amendments. To the extent the law permits and we
indicate in our notice, amendment will apply to your
existing account balance as well as to future transactions.
Acceptance of Agreement: You understand that the
use of your Visa Card will constitute acknowledgment of
receipt of these disclosures and acceptance of the terms
and conditions contained in the Agreement.
Security: To secure your account, you grant us a purchase money security interest under the Uniform Commercial Code in any goods you purchase through the
account. If you default, we will have the right to recover
any of these goods which have not been paid for through
our application of your payments in the manner described herein.
Pledge of Share Accounts: You pledge to us and
grant a security interest in all joint and individual
accounts you have with Auburn University Federal
Credit Union now and in the future, except shares in
Individual Retirement Accounts and accounts where
the pledge or transfer of which would cause the loss
of a tax-exempt or tax-deferred status, to secure your
credit card account. You authorize us to apply the
balance in these account(s) to pay any amount due
under this Agreement if you should default.
Governing Law: Except to the extent Federal law is
applicable, the validity, construction and enforcement of
this Agreement and all matters arising out of issuance
and use of the Card shall be governed by the laws of the
State of Alabama. If any part of this Agreement shall be
held invalid or unenforceable, then this Agreement shall
be construed as if it did not contain those provisions and
the Credit Union’s rights and obligations shall be construed and enforced accordingly.
Limitation on Lawsuits: You agree that any lawsuit
based on any cause of action for which you may have
against us must be filed within one year from the date that
it arises or you will be barred from filing suit. This limitation
is intended to include tort, contract, and all other causes
of action for which you and we may lawfully contract set
limitations for bringing suit.
Notice: You agree that the address in the Visa Card
application is the proper address for all notice(s) required
by this Agreement and you further understand that any

changes in this address must be submitted to us in writing
to be effective.
28. Notice Regarding Telephone Contact: You agree that
the Credit Union, its agents and other service companies
may without the need to seek additional confirmation
from you monitor, and/or record any telephone communication with you to insure inquires from you are handled
promptly, courteously and accurately.

YOUR BILLING RIGHTS — KEEP THIS NOTICE FOR
FUTURE USE
This notice contains important information about your rights and
our responsibilities under the Fair Credit Billing Act
Notify Us In Case of Errors or Questions About Your Bill
If you think that your bill is wrong, or if you need more information
about a transaction on your bill, write us on a separate sheet at the
address listed on your bill. Write to us as soon as possible. We must
hear from you no later than 60 days after we sent you the first bill on
which the error or problem appeared. You can telephone us, but
doing so will not preserve your rights.
In your letter give us the following information:
Your name and account number
The dollar amount of the suspected error
Describe the error and explain, if you can, why you believe
there is an error. If you need more information, describe the item
you are not sure about.
If you have authorized us to pay your credit card bill automatically
from your savings or shared draft account, you can stop the
payment on any amount you think is wrong. To stop the payment
your letter must reach us three business days before the automatic
payment is scheduled to occur.
Your Rights and Our Responsibilities
After We Receive Your Written Notice
We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you
question, or report you as delinquent. We can continue to bill you for
the amount in question, including finance charges, and we can
apply an unpaid amount against your credit limit. You do not have
to pay any questioned amount while we are investigating, but you
are still obligated to pay the parts of your bill that are not in question.
If we find that we made a mistake on your bill, you will not have to
pay any finance charges related to any questioned amount. If we
didn’t make a mistake, you may have to pay finance charges, and
you will have to make up any missed payments on the questioned
amount. In either case, we will send you a statement of the amount
you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report
you as delinquent. However, if our explanation does not satisfy you
and you write us within ten (10) days telling us that you still refuse
to pay, we must tell anyone we report you to that you have a question
about your bill. We must tell anyone we report you to that the matter
has been unsettled between us when it finally is.
If we don’t follow these rules, we can’t collect the first $50 of the
questioned amount, even if your bill was correct.
© 2010 ConmarSystems, Peachtree City, GA 30269—CFS 18959 Rev. 6/15

Special Rule For Credit Card Purchases.
If you have a problem with the quality or property or services that you
purchased with a credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not
to pay the remaining amount due on the property or service. There
are two limitations on this right:
(a) You must have made the purchase in your home state or, if not
within your home state, within 100 miles of your current mailing
address; and
(b) The purchase price must have been more than $50
These limitations do not apply if we own or operate the merchant,
or if we mailed you the advertisement for the property or services.

AUBURN UNIVERSITY
Federal Credit Union
7.90%-15.00%

ANNUAL
PERCENTAGE RATE
for Purchases

when you
open an account based on your
creditworthiness

ANNUAL
PERCENTAGE RATE
for Balance Transfers

when you
open an account based on your
creditworthiness

ANNUAL
PERCENTAGE RATE
for Cash Advances
How To Avoid Paying
Interest on Payments

For Credit Card Tips
From the Consumer
Financial Protection
Bureau

7.90%-15.00%

7.90%-15.00%

when you
open an account based on your
creditworthiness
Your due date is at least 25 days
after the close of each billing
cycle. We will not charge you
interest on purchases if you pay
your entire balance by the due
date each month.
To learn more about factors to
consider when applying for or
using a credit card, visit the website
of the Consumer Financial
Protection Bureau at:
http://www.consumerfinance.gov/
learnmore

FEES
Set-up And
Maintenance Fees
Annual Fee
Cash Advance Fee

Replacement Card Fee

Transaction Fees
Penalty Fees

Late Payment
Returned Payment Fee

Credit Card
Agreement

NONE
$ 5.00 or 2% of the amount
advanced
$10.00
NONE
up to $20.00
$18.00

How We Will Calculate Your Balance: We use a method called “Average
Daily Balance (including new purchases)”.
See your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how
to exercise those rights is provided in your Account agreement.

P.O. Box 1610
Auburn, Alabama 36831
(334) 844-4120
(888) 899-2112

AUBURN UNIVERSITY FEDERAL CREDIT UNION VISA ®
CREDIT CARD AGREEMENT AND TRUTH-IN LENDING
DISCLOSURE
In this Agreement, the words, you and your mean each and all of
those who bind themselves to the Agreement. Card Means the
Visa Credit Card and any duplicates and renewals the Credit
Union issues. Account means your Visa account with the Credit
Union. Credit Union means Auburn University Federal Credit
Union. This Agreement is a final expression of the terms and
conditions of this VISA account between you and the Credit Union
and may not be contradicted by evidence of any alleged oral
agreement.
1. Responsibility: If we issue you a Card, you agree to
repay all debts and the FINANCE CHARGE arising
from the use of the Card and the card account and any
fees or charges associated with the card account. For
example, you are responsible for charges made by
yourself, your spouse and minor children. You are also
responsible for charges made by anyone else to whom
you give the Card, and this responsibility continues until
you recover the Card, and all charges are paid. You
cannot disclaim responsibility by notifying us, but we
will close the account for new transactions if you so
request and return all Cards. Your obligation to pay the
account balance continues even though an agreement,
divorce decree or other court judgment to which we are
not a party may direct you or one of the other persons
responsible to pay the account. Any person using the
Card is jointly responsible with you for charges he or
she makes, but if that person signs the Card he or she
becomes party to this Agreement and is also jointly
responsible for all charges on the account, including
yours.
2. Joint Accounts: If this is a joint account each person
on the account will be individually and jointly responsible for paying all amounts owed under this Agreement. This means that the Credit Union can require any
one of you individually to repay the entire amount owed.
Each of you authorizes the other(s) to make purchases
or cash advances individually. Any one of you may
terminate the Account and the termination will be effective for all of you.
3. Lost Card Notification: If you believe your Card or PIN
has been lost or stolen, you should immediately call
800-991-4964 at any time. You agree to follow up your
call by writing to us at: Credit Card Security, PO Box
30035, Tampa. FL 33630. We may charge a reasonable fee to replace your Card.
4. Liability for Unauthorized Use of Credit Card: We
may hold you liable for the unauthorized use of your
card. You will not be liable for unauthorized use that
occurs after you notify us orally or in writing of the loss,
theft, or possible unauthorized use of your card. If the
unauthorized use occurred at an ATM, your liability will
not exceed $50.00.
5. Credit Line: If we approve your application, we will
establish a self-replenishing Line of Credit for you and
notify you of its amount when we issue the Card. You
agree not to let the account balance exceed this approved Credit Line. Each payment you make on the
account will restore your Credit Line by the amount of
the payment which is applied to principal. You may
2010 ©ConmarSystems, Peachtree City, GA 30269 - CFS 18959 Rev. 6/15

6.

7.

8.

9.

request an increase in your Credit Line by contacting our
Credit Department and complying with any request required
to update your application, which must be approved by our
credit committee or loan officer. By giving you written notice,
we may reduce your Credit Line from time to time, or with
good cause, revoke your Card and terminate this Agreement. Good cause includes your failure to comply with this
Agreement or our adverse re-evaluation of your creditworthiness. You may also terminate this Agreement at any
time, but termination by either or us does not affect your
obligation to pay the account balance. The cards remain our
property and you must recover and surrender to us all cards
upon our request and upon termination of this Agreement.
Credit Information: You authorize us to investigate your
credit standing when opening, renewing or reviewing your
account, and you authorize us to disclose information
regarding your account to credit bureaus and other creditors
who inquire of us about your credit standing, to the extent
authorized by our By-laws.
Monthly Payment: We will mail a statement every month
showing your Previous Balance of purchases and cash
advances on your account, the remaining credit available
under your Credit Line, the New Balance of purchases and
cash advances, the Total New Balances, the FINANCE
CHARGE due as of the statement date, any other billed
fees, and the Minimum Payment required. Every month you
must pay at least the minimum payment shown on your
statement by the payment due date. By separate agreement, you may authorize us to charge the minimum payment automatically to your share or draft account with us.
You may of course, pay more frequently, pay more than the
Minimum Payment, or pay the Total New Balance in full, and
you will reduce the FINANCE CHARGE by doing so. However, if a balance remains owing, you must always pay at
least the minimum payment each month. The Minimum
Payment will be either (a) 2% of that portion of the new
balance which does not exceed your credit limit plus the
entire portion of the new balance in excess of your credit
limit, plus any amount past due, or $20.00, whichever is
greater, or (b) your Total New Balance if it is less than
$20.00. In addition, at any time your Total New Balance
exceeds your Credit Line, you must immediately pay the
excess upon our demand. Payments are applied in the
following order: (1) finance charge; (2) miscellaneous fees;
(3) principal. Merchant credits are applied in the following
order: (1) principal; (2) miscellaneous fees; (3) cash advance fees; (4) late fees; (5) interest due [finance charges].
When payments are made, the principal is reduced as
follows: (1) purchase balance as of the last statement; (2)
cash advance balance as of the last statement; (3) purchases this cycle; (4) cash advances this cycle.
Annual Percentage Rate: At the date these disclosures
are made to you, your account will be subject to a monthly
periodic rate of 0.6583%-1.25% which corresponds to an
ANNUAL PERCENTAGE RATE of 7.90%-15.00%. This
rate applies to Visa Classic and Visa Gold accounts.
Finance Charges for Purchases: You can avoid FINANCE
CHARGES on purchases by paying the full amount of the
New Balances of Purchases each month within 25-days of
your statement closing date. Otherwise, the New Balance of
Purchases, from the date they are posted to your account,
will be subject to FINANCE CHARGES. The principal balances of purchases are determined each day during the

10.

11.

12.

13.

14.

statement period, beginning with the principal portion of
your Previous Balances, reduced by payments you make
and credits we apply and increased by purchases you make
and the debit adjustments we make during the statement
period. The Daily principal balances are totaled and divided
by the number of days in the statement period, to produce
the average daily principal balances for purchase to which
the daily rate is then applied.
Finance Charges for Cash Advances: You will pay interest on each cash advance from the day we charge it against
your account. Interest is imposed on the average daily
balance of cash advance and will continue to accrue on the
unpaid average daily balance from the date made or from
the first day of the billing cycle in which cash advance is
posted to your account, whichever is later, and will continue
to accrue until the date of payment. The FINANCE CHARGE
for a billing cycle is computed by applying the monthly
periodic rate to the average daily balance of Cash Advances, which is determined by dividing the sum of the daily
balances during the billing cycle by the number of days in the
cycle. Each daily balance of Cash Advances is determined
by adding to the outstanding unpaid balance of Cash
Advances at the beginning of the billing cycle any new Cash
Advances received and subtracting any payments as received or credits posted to your account, but excluding any
unpaid FINANCE CHARGES.
Transaction Finance Charge: The transaction finance
charge is a one-time charge made each time a new cash
advance is posted to your account. The charge for each
cash advance obtained through any ATM is $5.00. the
charge for each cash advance obtained through any other
source is 2% of the amount of the advance, but in no event
less than $5.00. Since Transaction Finance Charges are
one-time charges that must be reflected in calculating the
Annual Percentage Rate disclosure, the actual Annual
Percentage Rate shown on your periodic statement may
exceed the corresponding Annual Percentage Rate (which
is based on the periodic finance charge) in any month for
which a new cash advance is posted to your account.
Fees:
a. Replacement card fee – we reserve the right to
charge you $10.00 to replace a card.
b. NSF checks – we charge $18.00 for receipt of a
non-sufficient funds check.
Late Charges: If we do not receive at least your minimum
required payment within ten (10) days after the closing date
subsequent to the payment due date indicated on your
billing statement, we will charge you a fee up to $20.00 for
each late payment.
Default: You will be in default if you fail to make any
Minimum Payment by the payment due date. You will also
be in default if your ability to repay us is materially reduced
by a change in your employment, an increase in your
obligations, bankruptcy or insolvency proceedings against
you or your spouse, your death or your failure to abide by
this agreement or if the value of any security interest you
have given us materially declines, there is an attachment,
execution or levy against your property or you make an
assignment for the benefit of creditors, a guardian, conservator, receiver, custodian or trustee has been appointed for
you, you are generally not paying your debts as they come

15.

16.

17.

18.

19.

20.

due, you fail to pay any other loan with us or you have made
any false or misleading statement on the application for
VISA. If you are in default, we may, without notifying you,
temporarily suspend your account, close your account,
cancel all credit cards and we have the right to demand
immediate payment of your full account balance.
Collection Costs: The Credit Union may file suit to collect
what you owe. If the Credit Union incurs any expenses in
taking action or in protecting its rights, you agree to pay all
costs of collecting the amount owed under this Agreement
including reasonable attorneys’ fees not in excess of fifteen
percent (15%) of the unpaid debt if the amount financed
hereunder exceeds $300.00 and the debt is referred for
collection to an attorney who is not our employee.
Using the Card: To make a purchase or cash advance, you
may present the Card to a participating Visa Card plan
merchant, to us or to another financial institution and sign
the sales or cash advance draft which will be imprinted with
your Card. You will receive a copy of the draft, which you
should retain to verify your monthly statement. You can use
your card to obtain cash advances up to $360.00 per day
from any authorized Auburn University Federal Credit Union
Automated Teller Machine (ATM).
Legal Transactions: You may use your Auburn University
Federal Credit Union Visa Card to conduct any transaction
or obtain any Credit Union service permitted by law. You
agree that the use of the Card to obtain a service or effect
a transaction that is illegal under the law of any jurisdiction
where originated, effected or accomplished will be a default
and breach of this Agreement. We may terminate the
access to the service or withdraw the right to use the Card
and/or demand the return of all Visa card or access devices
issued to you. If illegal use of your Card occurs, you waive
the right to sue Auburn University Federal Credit Union and
agree to indemnify and hold us harmless from any suits or
other legal action or liability which may be asserted, directly
or indirectly, against Auburn University Federal Credit Union
arising out of or resulting from the illegal use of the Visa
Card.
Returns and Adjustments: Merchants and others who
honor the Card may give credit for returns or adjustments,
and they will do so by sending us a credit slip, which we will
post to your account. If your credits and payments exceed
what your owe us, we will hold and apply this credit balance
against future purchases and cash advances, or if it is $1 or
more, refund it on your written request or automatically after
6 months.
Foreign Transactions: Purchases and cash advances
made in foreign countries and foreign currencies will be
billed to you in U.S. dollars. The conversion rate to dollars
will be determined in accordance with the operating regulations established by VISA International. Currently the conversion rate used to determine the transaction amount in
U.S. dollars is generally either a government-mandated rate
or the wholesale rate in effect the day before the transaction
processing date, increased by 1%. The currency conversion rate used on the processing date may differ from the
rate that would have been used on the purchase date or
cardholder statement posting date.
Plan Merchant Disputes: We are not responsible for the
refusal of any plan merchant or financial institution to honor
your card. We are subject to claims and defenses (other
than tort claims) arising out of goods and services your

